Harmony A. Mappes
Partner
harmony.mappes@FaegreBD.com
Direct +1 317 237 8246

Faegre Baker Daniels LLP
300 North Meridian Street  Suite 2500
Indianapolis  Indiana 46204-1750
Main +1 317 237 0300
Fax +1 317 237 1000

September 17, 2019
VIA ELECTRONIC FILING & U.S. MAIL
Clerk of the Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Lee Chatfield, et al. v. League of Women Voters of Michigan, et al., No. 19-220

Chief Justice Roberts and Justices Thomas, Ginsburg, Breyer, Alito, Sotomayor, Kagan, Gorsuch, and
Kavanaugh:
We represent Appellees in Lee Chatfield, et al. v. League of Women Voters of Michigan, et al., No. 19220. We have filed our appearances concurrently with this letter. Appellants filed their jurisdictional
statement with the Court on August 15, 2019. This letter serves as Appellees’ response to that
jurisdictional statement.
Appellees concur that this Court has statutory jurisdiction over this appeal under 28 U.S.C. § 1253 and
that this appeal from the District Court’s April 25, 2019 final judgment was timely filed.
While Appellees respectfully disagree with this Court’s holding in Rucho v. Common Cause, 139 S. Ct.
2484 (2019), Appellees concur with Appellants that it is controlling precedent that establishes a lack of
Article III jurisdiction as to the claims decided in the final judgment below. Accordingly, Appellees do
not object to the relief Appellants now seek, specifically to vacate summarily the District Court’s
judgment and to remand with instructions to dismiss for lack of jurisdiction.
Respectfully,
/s/Harmony A. Mappes
/s/ Kevin M. Toner
Counsel for Appellees
cc: Counsel for Appellants

